No.
IN THE SUPREME COURT OF THE UNITED STATES
CHARLES SENKE,
PETITIONER,
- VS. UNITED STATES OF AMERICA,
RESPONDENT.
CERTIFICATE OF SERVICE
ROBERT EPSTEIN hereby certifies:
That he is a member of the Bar of the Supreme Court of the United States.
That on August 19, 2021, the petition for writ of certiorari and accompanying appendix in
the above-entitled case was deposited in a United States Post Office mail box located in
Philadelphia, Pennsylvania, with first class/priority postage prepaid, properly addressed to the
Clerk of the Supreme Court of the United States and within the time allowed for filing said
petition for writ of certiorari.
That a copy of the petition and appendix were served on the following individual at the
address shown below:
Elizabeth Prelogar, Esquire
Acting Solicitor General of the United States
Room 5614 - U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
It is further certified that a copy was served upon Assistant United States Attorney
Michelle Oleshefski at:
Michelle Oleshefski, AUSA
United States Attorney’s Office

615 Chestnut Street, Suite 1250
Philadelphia, PA 19106
Michelle.Oleshefski@usdoj.gov
Dated this 19th day of August, 2021
/s/ Robert Epstein
ROBERT EPSTEIN
Assistant Federal Defender
Counsel of Record
BRETT G. SWEITZER
Assistant Federal Defender
Chief of Appeals
LEIGH M. SKIPPER
Chief Federal Defender
FEDERAL COMMUNITY DEFENDER OFFICE
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
Suite 540 West – The Curtis
601 Walnut Street
Philadelphia, PA 19106
(215) 928-1100
Counsel for Petitioner

